TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2010 Statutory Audit of
                        Compliance With Legal Guidelines
                         Restricting the Use of Records of
                             Tax Enforcement Results



                                           July 23, 2010

                              Reference Number: 2010-30-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) - Other



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


FISCAL YEAR 2010 STATUTORY AUDIT                     WHAT TIGTA FOUND
OF COMPLIANCE WITH LEGAL
                                                     The IRS did not achieve full compliance with
GUIDELINES RESTRICTING THE USE                       Section 1204(a) requirements. TIGTA identified
OF RECORDS OF TAX ENFORCEMENT                        violations of RRA 98 Section 1204(a) in 3 of the
RESULTS                                              1,074 employee or manager performance
                                                     evaluation documents reviewed. Our review
                                                     found documentation that managers included
Highlights                                           ROTERs in three employees’ performance
                                                     evaluation documents.
Final Report issued on July 23, 2010
                                                     Also, the IRS did achieve full compliance with
Highlights of Reference Number: 2010-30-076          Section 1204(b) and (c) requirements. The IRS
to the Internal Revenue Service Deputy               evaluated all employees on the fair and
Commissioner for Operations Support.                 equitable treatment of taxpayers and prepared
                                                     quarterly self-certifications showing that
IMPACT ON TAXPAYERS                                  ROTERs were not used to evaluate employees.
The Internal Revenue Service (IRS)                   In a judgmental sample of 31 employees,
Restructuring and Reform Act of 1998 (RRA 98)        7 (23 percent) did not understand the term
requires the IRS to ensure that managers do not      “retention standard” and 11 (35 percent) were
evaluate enforcement employees using any             not sure they had received training on the
record of tax enforcement results (ROTER) or         retention standard.
base employee successes on meeting
production goals and quotas. Based on the            WHAT TIGTA RECOMMENDED
results of our sample, TIGTA believes the IRS’       TIGTA recommended the IRS ensure that:
efforts to enforce the employee evaluation           •   Section 1204 violations are reviewed with
requirements under Section 1204 are generally            managers and that they are provided
effective and are helping to protect the rights of       training related to the use of ROTERs.
taxpayers.                                           •   All managers are aware of guidelines when
WHY TIGTA DID THE AUDIT                                  reviewing employee self-assessments.
                                                     •   A mandatory annual training is instituted to
TIGTA is required under Internal Revenue Code            ensure that employees understand the
Section 7803(d)(1)(2000) to annually evaluate            retention standard.
whether the IRS is in compliance with
restrictions on the use of enforcement statistics    IRS officials agreed with one of three
under RRA 98 Section 1204. Our review                recommendations. For the two disagreed
determined whether the IRS was compliant with:       recommendations, IRS officials provided
                                                     corrective actions that appeared to address
•   Section 1204(a), which prohibits the IRS         TIGTA’s concerns; however, the actions were
    from using any ROTER to evaluate                 not clear or were incomplete. In one of the two
    employees or to impose or suggest                disagreed recommendations, subsequent
    production quotas or goals.                      discussions identified new planned guidelines
                                                     concerning self assessments; however, IRS
•   Section 1204(b), which requires that             officials were unable to provide the guidelines
    employees be evaluated using the fair and        for review because they had not been finalized.
    equitable treatment of taxpayers as a            In the remaining disagreed recommendation, the
    performance standard.                            IRS clarified its actions and provided a planned
•   Section 1204(c), which requires each             completion date of December 31, 2010.
    appropriate supervisor to self-certify
    quarterly whether ROTERs were used in a
    prohibited manner.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 23, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2010 Statutory Audit of Compliance
                              With Legal Guidelines Restricting the Use of Records of Tax
                              Enforcement Results (Audit # 201030006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as
 set forth in the IRS Restructuring and Reform Act of 1998 (RRA 98) Section 1204. 1 The
 Treasury Inspector General for Tax Administration is required under Internal Revenue Code
 Section 7803(d)(1)(2000) to annually evaluate the IRS’ compliance with the provisions of
 RRA 98 Section 1204. The RRA 98 requires the IRS to ensure that managers do not evaluate
 enforcement employees 2 using any record of tax enforcement results or base employee successes
 on meeting production goals and quotas.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.




 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
 judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
 who provides direction/guidance for Section 1204 program activities.
                                   Fiscal Year 2010 Statutory Audit of Compliance
                                     With Legal Guidelines Restricting the Use of
                                        Records of Tax Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          First-Line and Second-Line Managers Appropriately Completed Their
          Quarterly Self-Certifications.........................................................................Page 4
          The Internal Revenue Service Is Not in Full Compliance With the
          Use of Records of Tax Enforcement Results Procedures .............................Page 5
                    Recommendations 1 through 3:...........................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV –Prior Audit Reports ...............................................................Page 15
          Appendix V – Manager’s Quarterly Self-Certification – No Violations
          (Form 1204-M) .............................................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
         Fiscal Year 2010 Statutory Audit of Compliance
           With Legal Guidelines Restricting the Use of
              Records of Tax Enforcement Results




                 Abbreviations

FY         Fiscal Year
IRS        Internal Revenue Service
ROTER      Record of Tax Enforcement Results
RRA 98     Restructuring and Reform Act of 1998
TIGTA      Treasury Inspector General for Tax Administration
                              Fiscal Year 2010 Statutory Audit of Compliance
                                With Legal Guidelines Restricting the Use of
                                   Records of Tax Enforcement Results




                                           Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law. 1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees or to impose or suggest production quotas
or goals.
The IRS defines ROTERs as data, statistics, compilations of
information, or other numerical or quantitative recording of                 RRA 98 Section 1204
the tax enforcement results reached in one or more cases. A                  prohibits the IRS from
ROTER does not include evaluating an individual case to                        using ROTERs or
                                                                              production goals or
determine if an employee exercised appropriate judgment in                     quotas to evaluate
pursuing enforcement of the tax laws. Examples of ROTERs                          employees.
include the amount of dollars collected or assessed, the
number of fraud referrals made, and the number of seizures
conducted.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. The standard requires employees to administer the tax laws fairly and
equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity,
and respect. This provision of the law was enacted to provide assurance that employee
performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a self-certification
quarterly. In the self-certification, the appropriate supervisor attests to whether ROTERs or
production quotas or goals were used in a prohibited manner. The IRS defines an appropriate
supervisor as the highest ranking executive in a distinct organizational unit who supervises
directly or indirectly one or more Section 1204 enforcement employees. 2 Current IRS
procedures require each level of management, beginning with first-line managers of
Section 1204(a) employees, to self-certify that they have not used ROTERs in a manner



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                        Page 1
                                                                  Fiscal Year 2010 Statutory Audit of Compliance
                                                                    With Legal Guidelines Restricting the Use of
                                                                       Records of Tax Enforcement Results



prohibited by RRA 98 Section 1204(a). The appropriate supervisor then prepares a consolidated
office certification covering the entire organizational unit.
The IRS functional offices and divisions, including the Office of the Chief, Appeals; the
Office of the Chief, Criminal Investigation Division; the Large and Mid-Size Business Division;
the Small Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the
Tax Exempt and Government Entities Division; and the Wage and Investment Division, are
responsible for Section 1204 program implementation within their respective areas.
Section 1204 Program Managers and Coordinators in each business organization are available to
provide guidance to managers regarding Section 1204 issues, including the certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business organizations as of September 30, 2009. The Section 1204 managers either supervised
a Section 1204 employee or provided guidance or direction for Section 1204 activities.
                           Figure 1: Number of Section 1204 and Non-Section 1204 Managers
                                  by Business Organization (as of September 30, 2009)

                                2,500
                                                                                                                    2,313

                                2,000                                                                                                            1,839
   Number of Managers




                                1,500

                                                                                                                                            916
                                1,000
                                                                                              646
                                                                       495
                                    500
                                                  145                                                                       145                                    190                   206
                                                              7                   58                    57                                                                    2                     12
                                           0                             Criminal                                                                                                     Tax Exemp t and
                                                                                          Larg e and M id -Size Small Bus ines s / Self-    Wag e and          Nat io nal Taxp ayer
                                               Ap p eals Funct io n   Inves tig at io n                                                                                                 Go vernment
                                                                                           Bus ines s Divis io n Emp lo yed Divis io n Inves t ment Divis io n      Ad vo cat e
                                                                         Divis io n                                                                                                   Ent it ies Divis io n

                        Sect io n 12 0 4               14 5                495                    646                   2 ,3 13                 9 16                   19 0                  206
                        No n-Sectio n 12 0 4            7                    58                    57                    14 5                  1,8 3 9                  2                      12



Source: IRS National Section 1204 Program Manager.

Internal Revenue Code Section 7803(d)(1)(2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with
restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed 11 annual reviews to meet this requirement. Appendix IV lists the prior
audit reports.



                                                                                                                                                                                                    Page 2
                          Fiscal Year 2010 Statutory Audit of Compliance
                            With Legal Guidelines Restricting the Use of
                               Records of Tax Enforcement Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation Division; the Office of the National Taxpayer Advocate; the Large and Mid-Size
Business Division; the Small Business/Self-Employed Division; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division during the period
October 2009 through March 2010. Onsite reviews were performed at the IRS field offices in
Oakland and San Francisco, California; Hartford and New Haven, Connecticut;
Jacksonville, Florida; Atlanta, Georgia; Chicago and Downers Grove, Illinois; and
Dallas and Farmers Branch, Texas. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                              Fiscal Year 2010 Statutory Audit of Compliance
                                With Legal Guidelines Restricting the Use of
                                   Records of Tax Enforcement Results




                                     Results of Review

First-Line and Second-Line Managers Appropriately Completed Their
Quarterly Self-Certifications
All 79 3 first-line and second-line managers we sampled were in compliance with the provisions
of RRA 98 Section 1204(c) and completed the required self-certifications on the use of tax
enforcement results for the second and fourth quarters of Fiscal Year (FY) 2009. Each manager
certified that ROTERs or production goals or quotas were not used when evaluating employees.
Appendix V reflects the Manager’s Quarterly Self-Certification – No Violations (Form 1204-M)
that managers use to self-certify that there are no violations of RRA 98 Section 1204(a) and (b).
RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly, in writing, to the
IRS Commissioner whether ROTERs and production quotas or goals were used in a prohibited
manner. Therefore, managers who evaluate Section 1204 employees are required to certify in
writing that they did not:
    •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
        for employees in any performance evaluations, including appraisals, awards, or
        promotion justifications, written or reviewed by the manager.
    •   Verbally communicate to employees that ROTERs affected their evaluations.
    •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
        employees or for work unit activities (e.g., through program guidance or business and
        program reviews).
Per the Internal Revenue Manual, the business organization and function Section 1204 Program
Managers and their respective Section 1204 Coordinators should monitor the quarterly
certification process and provide guidance to managers regarding Section 1204 issues throughout
their organizations/functions. Through the quarterly certification process, managers are
reminded of their responsibilities under RRA 98 Section 1204 not to evaluate their employees on
the basis of ROTERs or production quotas or goals. The quarterly certification process helps to
ensure that managers are aware of the IRS’ commitment to administer the tax laws fairly and to
protect the rights of taxpayers.




3
 Our original sample consisted of 80 managers. However, one manager listed was not responsible for any
Section 1204 employees and was removed from our sample.
                                                                                                         Page 4
                               Fiscal Year 2010 Statutory Audit of Compliance
                                 With Legal Guidelines Restricting the Use of
                                    Records of Tax Enforcement Results



The Internal Revenue Service Is Not in Full Compliance With the Use
of Records of Tax Enforcement Results Procedures
In FY 2009, the IRS did not achieve full compliance with RRA 98 Section 1204(a) due to
violations in 3 of 1,074 employee or manager performance-related documents reviewed. The
ROTERs were found in one annual and two mid-year appraisals of employees in the **3(d)***
****3(d)***************. We discussed the violations with the manager who was not aware
that he or she had included ROTERs in the performance evaluation documents. The manager
provided reasons for using statistics in the performance evaluations and stated Section 1204
internal guidelines were used when writing the evaluations. However, the additional information
provided did not eliminate the violation.
To evaluate the IRS’ compliance with Sections 1204(a) and 1204(b), we selected a judgmental
sample of 69 first-line managers and 207 employees in 10 sites. 4 The sites selected had at least
four 5 business organizations with Section 1204 first-line
managers. We selected seven managers and three of the
manager’s employees at each site and reviewed their            TIGTA auditors reviewed
performance evaluation documents. We also reviewed            1,074 performance-related
performance documents for 10 second-line managers. We            documents for 286 IRS
evaluated 1,074 FY 2009 performance-related documents,               employees.
including mid-year and annual performance reviews,
employee self-assessments, workload reviews, and award
documentation for 286 employees, to determine whether ROTERs were used when evaluating
the employees’ performance.
During our review of the *************3(d)****************************, we identified a
self-assessment that contained ROTER information that was attached to a Recommendation for
Performance Award. We discussed this issue with a Program Manager from the ***3(d)******
***3(d)************* and learned that employees are encouraged but not required to submit a
self-assessment. We did not consider this a violation because the ROTER information was not
included in the narrative for the performance award. However, the manager did not follow
proper procedures which require employees to submit a revised self-assessment when ROTERs
are identified. In addition, employees should be counseled to ensure they understand the proper
use of statistics within the IRS. We were advised by the ***3(d)******************* that the
procedures for self-assessments are currently being revised because many employees fail to
submit a revised self-assessment when ROTERs are identified.


4
  See Appendix I for details of the IRS offices and cities selected for review. We originally sampled 70 first-line
managers; however, 1 manager was removed from our sample because he or she did not have responsibility for
enforcement employees. As a result, three employees were also eliminated from our sample.
5
  In the Dallas, Farmers Branch, and Jacksonville locations, we contacted first-line managers in only three business
organizations.
                                                                                                             Page 5
                          Fiscal Year 2010 Statutory Audit of Compliance
                            With Legal Guidelines Restricting the Use of
                               Records of Tax Enforcement Results



Based on the results of our review, the IRS’ efforts to ensure that managers are not using
ROTERs or production goals or quotas to evaluate employees are effective and are helping to
protect the rights of taxpayers. The IRS continues to use its managerial self-certification process
to identify and report ROTER violations.

Some employees did not understand the retention standard terminology or
receive training
We interviewed a judgmental sample of 31 Section 1204 employees to determine if they received
training and understood the terminology “retention standard.” Seven (23 percent) did not
understand the term and 11 (35 percent) were not sure if they had received training related to this
topic. The first-line managers we sampled documented that they had evaluated employees on the
retention standard. According to RRA 98 Section 1204(b), IRS employees are to be evaluated
on the retention standard. The standard applies to all executives, managers, and other
employees.
On June 16, 1999, the IRS established a retention standard method to ensure that employee
performance is focused on providing quality service to taxpayers instead of on achieving
enforcement results. For all 286 employees sampled, Block 9 of the Bargaining Unit
Performance Appraisal and Recognition Election (Form 6850-BU) or the Non-Bargaining Unit
Performance Appraisal (Form 6850-NBU) was checked, indicating that the employees were
evaluated on this standard. Figure 2 presents a Form 6850-BU pertaining to the retention
standard.




                                                                                            Page 6
                              Fiscal Year 2010 Statutory Audit of Compliance
                                With Legal Guidelines Restricting the Use of
                                   Records of Tax Enforcement Results



                      Figure 2: Forms 6850 Retention Standard Rating




                                                                                                  Block 9 is where
                                                                                                  managers should
                                                                                                  indicate that
                                                                                                  employees were
                                                                                                  evaluated on the
                                                                                                  retention standard
                                                                                                  in compliance with
                                                                                                  RRA 98
                                                                                                  Section 1204(b).




                  Source: Form 6850-BU.

It is important that the IRS ensure employees understand the retention standard because it can
directly affect interactions with taxpayers and the employee’s ability to safeguard taxpayer
rights. We reported 6 this issue during a prior TIGTA review and the IRS agreed to take
corrective actions. In December 2008, the IRS made changes to the Form 6850 and the



6
 Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of Records of Tax
Enforcement Results (Reference Number 2008-40-108, dated April 17, 2008).
                                                                                                        Page 7
                          Fiscal Year 2010 Statutory Audit of Compliance
                            With Legal Guidelines Restricting the Use of
                               Records of Tax Enforcement Results



instructions. Based on our results, this effort has not been sufficient to educate employees and
indicates the IRS continues to not meet full compliance with Section 1204 procedures.

Recommendations
Recommendation 1: The Commissioner, Large and Mid-Size Business Division, should
ensure that Section 1204 violations are reviewed with managers and that managers are provided
training to ensure they understand guidelines related to the use of ROTERs.
       Management’s Response: IRS management agreed with this recommendation. On
       June 9, 2010, the Large and Mid-Size Business Division issued a guidance memorandum.
       Supplemental guidance will be provided to all Large and Mid-Size Business Division
       managers at the all managers meeting scheduled for September 2010.
Recommendation 2: The Chief, Criminal Investigation Division, should ensure that all
Criminal Investigation Division managers follow the specific guidelines concerning employee
self-assessments.
       Management’s Response: IRS management disagreed with the recommendation.
       Management responded that annually, the Criminal Investigation Division conducts
       Section 1204 training using material that includes findings and violations from TIGTA’s
       audits. In addition, the Criminal Investigation Division is updating its training to include
       resolution of self-assessment ROTERs.
       Office of Audit Comment: Although IRS management disagreed with the
       recommendation, they plan to take corrective actions that include using findings and
       violations identified by TIGTA in their annual training. We believe these actions will
       assist the IRS’ efforts to achieve its goal of full compliance with Section 1204 guidelines.
       However, it is unclear whether the IRS’ efforts to update its training will ensure ROTERs
       are not included in self assessments. We contacted the IRS for clarity concerning the
       updated training and were advised that new guidelines are planned but they were unable
       to provide the new guidelines for our review.
Recommendation 3: The Deputy Commissioner for Operations Support should strengthen
the IRS’ efforts to achieve full compliance with RRA 98 Section 1204 procedures by instituting
mandatory annual training to ensure that each tax enforcement employee understands the
retention standard and its impact on the fair and equitable treatment of taxpayers.
       Management’s Response: IRS management disagreed with the recommendation.
       Management responded that all new Section 1204 managers and employees are required
       to take Section 1204 training upon arrival. The Chief Financial Officer plans to update
       IRS guidelines to include applicable documentation for retention standards. In addition,
       management plans to make a retention standard briefing available on the Chief Financial
       Officer’s web site and update Service-wide training.

                                                                                            Page 8
                  Fiscal Year 2010 Statutory Audit of Compliance
                    With Legal Guidelines Restricting the Use of
                       Records of Tax Enforcement Results



Office of Audit Comment: Although IRS management disagreed with the
recommendation, they plan to take corrective actions to address TIGTA’s concern that
employees do not understand or acknowledge that they have received training on the
retention standard. However, their corrective actions are not sufficient because they do
not include an implementation date, a responsible official, or a process to monitor
adherence to these guidelines. We discussed our concerns about the missing information
with the IRS and they agreed to designate a responsible official and implement the
planned corrective actions by December 31, 2010.




                                                                                  Page 9
                               Fiscal Year 2010 Statutory Audit of Compliance
                                 With Legal Guidelines Restricting the Use of
                                    Records of Tax Enforcement Results



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 Section 1204. 1
To accomplish this objective, we:
I.       Selected from a population of 4,886 first-line and second-line managers a judgmental
         sample of 79 managers to determine whether they complied with the provisions of
         RRA 98 Sections 1204(a) and 1204(b) when evaluating their Section 1204 employees’ 2
         performance.
         A. Identified the Office of the Chief Financial Officer; the Office of the Chief, Appeals;
            the Office of the Chief, Criminal Investigation Division; the Office of the National
            Taxpayer Advocate; the Large and Mid-Size Business Division; the Small
            Business/Self-Employed Division; the Tax Exempt and Government Entities
            Division; and the Wage and Investment Division office locations in various cities and
            the number of Section 1204 first-line managers located in each business organization.
             We judgmentally selected 10 cities for this year’s audit: Oakland and San Francisco,
             California; Hartford and New Haven, Connecticut; Jacksonville, Florida;
             Atlanta, Georgia; Chicago and Downers Grove, Illinois; and Dallas and
             Farmers Branch, Texas. We used FY 2009 data to select the audit sites for the
             sample. The audit sites were judgmentally selected based on the number of
             Section 1204 first-line managers located at a site and the business organizations
             represented, prior audit coverage in FYs 2004 through 2009, 3 geographical location
             of potential cities for travel considerations, and sites where the IRS internal review
             team identified problems.
         B. Selected a judgmental sample of seven first-line managers per city and three
            Section 1204 employees for each manager in our sample. We selected managers and
            employees from sites that had at least four 4 business organizations with Section 1204


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
3
  Reviewed locations visited during prior audits to ensure locations selected were not duplicated.
4
  In the Dallas, Farmers Branch, and Jacksonville locations, we contacted first-line managers in only three business
organizations.
                                                                                                            Page 10
                             Fiscal Year 2010 Statutory Audit of Compliance
                               With Legal Guidelines Restricting the Use of
                                  Records of Tax Enforcement Results



            first-line managers that had not been reviewed recently by TIGTA or IRS
            independent reviews. This provided a total of 69 managers and 207 5 employees for
            review. We obtained the FY 2009 performance evaluation documents prepared by
            the manager (including mid-year, annual performance reviews, award documents, and
            workload reviews) to determine whether ROTERs or production goals or quotas were
            inappropriately used in the evaluation process and whether employees were evaluated
            appropriately on the fair and equitable treatment of taxpayers.
        C. For any potential exception cases identified, interviewed the employees’ managers to
           determine the potential cause.
        D. Reviewed training records for the employees/managers selected for review that had
           ROTERs in their evaluations or self-assessments to determine whether mandatory
           yearly training was attended.
        E. Obtained TIGTA Counsel’s opinion on four cases (three violations of Section 1204(a)
           and one CID self-assessment) identified and referred as having potential legal
           violations of RRA 98 Section 1204.
        F. Discussed exception cases identified with the National Section 1204 Program
           Manager and the appropriate business organization coordinator for agreement and
           explored the potential root cause for the violations.
        G. Interviewed a judgmental sample of 31 Section 1204 employees concerning the use of
           ROTERs and their understanding of the retention standard. We selected three to four
           employees for each of the 10 sites visited. The overall population could not be
           determined because the sample was selected based on the employees in the office the
           day of our visits. New employees were interviewed to obtain their feedback on
           whether perceptions about the use of or emphasis on enforcement statistics or
           ROTERs have changed.
        H. We selected and reviewed a judgmental sample of 10 second-line managers’
           management performance evaluation documentation (i.e., mid-year, annual
           performance reviews, and award documents) for the inappropriate use of ROTERs.
           We focused on second-line managers whose performance documentation was located
           in the same cities as the first-line managers selected for review.




5
 We sampled 70 front-line managers; however, 1 manager did not have responsibility for enforcement employees.
Therefore, one manager and three employees were eliminated from our sample.
                                                                                                      Page 11
                              Fiscal Year 2010 Statutory Audit of Compliance
                                With Legal Guidelines Restricting the Use of
                                   Records of Tax Enforcement Results



II.     Determined whether the 79 selected first-line and second-line managers complied with
        RRA 98 Section 1204(c) by certifying by letter whether or not ROTERs were used in a
        manner prohibited by RRA 98 Section 1204(a). 6
        A. Obtained FY 2009 second and fourth quarter self-certifications for the selected
           first-line managers.
        B. Reviewed the self-certifications for compliance with IRS procedures and the
           identification of any use of ROTERs or production quotas or goals.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: guidelines and rules related to using
ROTERs in a way as to improperly influence the handling of taxpayer cases and employees
understanding and adherence to the “retention standard.” We evaluated these controls by
reviewing a judgmental sample of performance appraisals and signed self-certifications to
determine if the IRS is complying with restrictions on the use of enforcement statistics when
evaluating employees.




6
 Our original sample consisted of 80 managers. However, one manager listed was not responsible for any Section
1204 employees and was removed from our sample.
                                                                                                       Page 12
                        Fiscal Year 2010 Statutory Audit of Compliance
                          With Legal Guidelines Restricting the Use of
                             Records of Tax Enforcement Results



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth Schumann, Director
Frank Jones, Director
L. Jeff Anderson, Audit Manager
Earl Burney, Acting Audit Manager
Carol Gerkens, Lead Auditor
Stephen Wybaillie, Lead Auditor
Paul Baker, Senior Auditor
Gwendolyn Green, Senior Auditor
Debra Mason, Senior Auditor
Pillai Sittampalam, Senior Auditor
Nancy Van Houten, Senior Audit Evaluator




                                                                                   Page 13
                        Fiscal Year 2010 Statutory Audit of Compliance
                          With Legal Guidelines Restricting the Use of
                             Records of Tax Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation Division SE:CI
Chief Financial Officer OS:CFO
National Taxpayer Advocate TA
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP:TP:SS
       Chief, Criminal Investigation Division SE:CI
       Chief Financial Officer OS:CFO
       National Taxpayer Advocate TA




                                                                                    Page 14
                         Fiscal Year 2010 Statutory Audit of Compliance
                           With Legal Guidelines Restricting the Use of
                              Records of Tax Enforcement Results



                                                                              Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed 11 audits in this subject area. The audit reports were:
   Fiscal Year 2009 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2009-30-091, dated
   June 30, 2009).
   Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2008-40-108, dated
   April 17, 2008).
   Fiscal Year 2007 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2007-40-055, dated
   March 20, 2007).
   Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2006-40-095, dated
   June 6, 2006).
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 21, 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 19, 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 27, 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated
   September 11, 2002).
   Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
   Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
   September 27, 2001).
   Further Improvements Are Needed in Processes That Control and Report Misuse of
   Enforcement Statistics (Reference Number 2000-10-118, dated September 18, 2000).

                                                                                       Page 15
                     Fiscal Year 2010 Statutory Audit of Compliance
                       With Legal Guidelines Restricting the Use of
                          Records of Tax Enforcement Results



The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance with
Restrictions on the Use of Enforcement Statistics (Reference Number 1999-10-073, dated
September 29, 1999).




                                                                                   Page 16
                           Fiscal Year 2010 Statutory Audit of Compliance
                             With Legal Guidelines Restricting the Use of
                                Records of Tax Enforcement Results



                                                                     Appendix V

           Manager’s Quarterly Self-Certification –
               No Violations (Form 1204-M)




Source: Internal forms on the IRS web site.



                                                                            Page 17
         Fiscal Year 2010 Statutory Audit of Compliance
           With Legal Guidelines Restricting the Use of
              Records of Tax Enforcement Results



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 18
Fiscal Year 2010 Statutory Audit of Compliance
  With Legal Guidelines Restricting the Use of
     Records of Tax Enforcement Results




                                                 Page 19
Fiscal Year 2010 Statutory Audit of Compliance
  With Legal Guidelines Restricting the Use of
     Records of Tax Enforcement Results




                                                 Page 20
